                                        Ng to




         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Examination Report
The Department of Energy's
American Recovery and
Reinvestment Act – Ohio State
Energy Program




OAS-RA-L-12-07                    September 2012
                                 Department of Energy
                                   Washington, DC 20585

                                      September 20, 2012

MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY AND
               RENEWABLE ENERGY
                                                    for
FROM:                    Rickey R. Hass
                         Deputy Inspector General
                           for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Examination Report on "The Department of
                         Energy's American Recovery and Reinvestment Act – Ohio State
                         Energy Program"

BACKGROUND

The attached reports present the results of examinations of selected sub-grantee awardees
compliance with Federal and State laws, regulations and program guidelines applicable to the
State Energy Program (SEP) in the State of Ohio (Ohio). The Office of Inspector General
contracted with an independent certified public accounting firm, Otis & Associates, PC (Otis), to
perform the examinations and express an opinion on selected Ohio sub-grantees' compliance.

The Department of Energy's SEP provides grants to states, territories and the District of
Columbia (states) to support their energy priorities and fund projects that meet their unique
energy needs. The American Recovery and Reinvestment Act of 2009 (Recovery Act)
significantly expanded the SEP by providing an additional $3.1 billion for state projects. The
Ohio Department of Development (ODOD) was allocated $96.1 million in SEP funds under the
Recovery Act. ODOD divided the funds into 5 separate programs funding more than 123
projects. Otis selected four sub-grantees to test their compliance with Federal and State laws,
regulations and program guidance. The four sub-grantees selected were New Horizons Baking
Company (NHBC); Metro Regional Transit Authority (MRTA); Forest City Residential
Management, Inc.; and Timken Company.

CONCLUSIONS AND OBSERVATIONS

Otis expressed the opinion that except for the weaknesses described in its reports to NHBC and
MRTA, that each of the sub-grantees complied in all material respects with the requirements and
guidelines relative to SEP. Regarding the areas of non-compliance, the examination found that:

     •   NHBC did not comply with the Davis-Bacon Act requirements to pay locally prevailing
         wage rates; and,
                                                2


     •   MRTA did not separate Recovery Act funding from other sources of funding, as
         required. However, we noted that the charges to the funds were supported with receipts
         and other documents that indicated the costs charged to the grant were for Recovery
         Act purposes and were allowable.

The NHBC report recommended that Ohio and NHBC ensure that the prevailing Davis-Bacon
Act wage rates were properly paid to contractors and subcontractors. The MRTA report did not
include a recommendation because the project was completed and all project funds for the
project were spent.

RECOMMENDATIONS

As part of its responsibilities for managing the SEP, we recommend the Assistant Secretary for
Energy Efficiency and Renewable Energy:

     1. Ensure the State of Ohio and its sub-grantees comply with the Davis-Bacon Act and
        pay the appropriate wage rates; and,

     2. Ensure sub-grantees separate Recovery Act funding from other sources of funding.

MANAGEMENT REACTION

The Department concurred with the recommendations and committed to implementing corrective
actions. Ohio, in coordination with NHBC and Metro Regional Transit Authority, submitted
comments that generally concurred with the findings and recommendations. The Department's
response, along with the State's comments, is included in Attachment 5.

EXAMINATION-LEVEL REVIEW

Otis conducted its examination in accordance with attestation standards established by the
American Institute of Certified Public Accountants, as well as those additional standards
contained in Government Auditing Standards, issued by the Comptroller General of the United
States. The examination-level procedures included gaining an understanding of the State's and
the sub-grantees' policies and procedures and reviewing applicable SEP requirements. The
procedures also included a review of internal controls, as well as tests of appropriateness of cost
data, including travel expenditures, contractor and subcontractor charges and compliance with
the Davis-Bacon Act. Otis is responsible for the attached reports, dated August 10, 2012, and the
conclusions expressed in the reports.

The OIG monitored the progress of the examination and reviewed the report and related
documentation. Our review disclosed no instances where Otis did not comply, in all material
respects, with the attestation requirements. We coordinated with SEP management as the
examination progressed to keep them informed of its progress. SEP management waived the exit
conference.

Attachments
                                        3


cc: Deputy Secretary
    Associate Deputy Secretary
    Acting Under Secretary for Energy
    Chief of Staff
EXAMINATION REPORT ON THE DEPARTMENT OF ENERGY'S AMERICAN
RECOVERY AND REINVESTMENT ACT – OHIO STATE ENERGY PROGRAM


TABLE OF
CONTENTS


Attachment 1 - New Horizon Baking Company ................................................................1

Attachment 2 - Metro Regional Transit Authority … ........................................................9

Attachment 3 - Forest City Residential Management, Inc .................................................17

Attachment 4 - Timken Company ......................................................................................23

Attachment 5 - Management Comments ...........................................................................29
                                                     Attachment 1




Report on Examination Level Attestation Engagement

                        Of

         New Horizon Baking Company
     American Recovery and Reinvestment Act
             State Energy Program



   Performed for the U.S. Department of Energy,
           Office of Inspector General

                      Under

         Contract Number: DE-IG0000018
          Work Order Number: 2011-02

                        By


              Otis and Associates, PC


                      Date:

                 August 10, 2012
                                                                                                      Attachment 1 (continued)


                                                     Table of Contents



Section                                                                                                                     Page



I.     Independent Accountants' Report ............................................................................3

II.    Background. .............................................................................................................4

III.   Classification of Finding ..........................................................................................6

IV.    Summary of Finding ................................................................................................7

V.     Advisory Comment………………………………………………………………..8




                                                                   2
    Attachment 1 (continued)




3
                                                                         Attachment 1 (continued)


                               SECTION II: BACKGROUND


The American Recovery and Reinvestment Act of 2009 (Recovery Act) was signed into law on
February 17, 2009. The Recovery Act authorizes funding to various economic sectors and
Federal programs. The State Energy Program (SEP), under the U.S. Department of Energy
(Department), received $3.1 billion to achieve the purposes set forth in the Recovery Act,
including the preservation and creation of jobs, promotion of economic recovery, and reduction
of energy consumption.

The State Energy Program is a categorical formula grant program administered by the
Department under a regulatory framework laid out in 10 CFR 600.6(b) and 10 CFR Part 420,
State Energy Program. The Department's SEP objectives are as follows:

     •   Increase energy efficiency to reduce cost and consumption for consumers, businesses
         and government;
     •   Reduce reliance on imported energy;
     •   Improve the reliability of electricity and fuel supply and the delivery of energy services;
         and,
     •   Reduce the impact of energy production and use on the environment.

The Department's Office of Inspector General (OIG) contracted with Otis and Associates, PC to
perform an Examination Level Attestation engagement on the Recovery Act's State Energy
Program services provided by selected State of Ohio sub-grantees. New Horizons Baking
Company (NHBC) is one of the four State of Ohio sub-grantees selected.

Under the Recovery Act, the State of Ohio received an allocation of $96,083,000 from the
Department for the SEP. The State of Ohio's Department of Development (ODOD) allocated
this funding among five different programs. The "Targeting Industrial Efficiency" Program was
allocated $18,200,429 to help manufacturing companies implement projects that improve the
energy efficiency of their operations. NHBC was awarded $1,000,000 to improve the energy
efficiency of its operations.

NHBC is a minority owned business enterprise registered with the State of Ohio and employs
220 full-time employees during the review period. NHBC has over 40 years experience in the
baking industry and supplies quality bakery products to one of the largest quick service
restaurants in the world, as well as several other select customers. NHBC has an approximately
120,000 square feet facility that contains an automated high-speed bun line with the capability of
producing over 3,960 dozen buns per hour, and English muffins at a rate of 1,650 dozen per
hour.

NHBC used the $1,000,000 of awarded SEP funds it was awarded to update its bun production
line. The award was for the installation of an automated high speed energy efficient oven and
proofer with a production goal of 5,000 dozen buns per hour. Under this award, NHBC is


                                                 4
                                                                         Attachment 1 (continued)

responsible for increasing its production line and retaining and creating jobs while recycling
energy.

NHBC and ODOD entered into a cost sharing agreement in which NHBC would invest
approximately $2,392,350 of its own funds for a SEP match of $1,000,000. The project was
completed in June 2010.


PROJECT COSTS INCURRED BY NHBC AS OF JULY 31, 2011

 Expense Category                                    Amount
 Equipment                                              $ 2,385,076.00
 Contract/Subcontracts labor                            $ 1,142,984.00
 Total                                                  $ 3,528,060.00


PROGRAM FUNDS REIMBURSED TO NHBC BY STATE OF OHIO

                                             Grant             Grant
  Federal Award           Amount           Effective        Completion
     Number                                    Date             Date
 DE-EE0000165          $1,000,000.00     April 23, 2010    April 25, 2011




                                                 5
                                                                       Attachment 1 (continued)


                     SECTION III: CLASSIFICATION OF FINDING

DEFINITION

There is only one finding in this report, which is categorized as an advisory comment, as defined
below, for the purposes of this engagement.


Advisory Comments

For purposes of this engagement, an advisory comment represents a control deficiency that is not
significant enough to adversely affect New Horizons Baking Company's ability to record,
process, summarize, and report data reliably.




                                                6
                                                                Attachment 1 (continued)



                      SECTION IV: SUMMARY OF FINDING


Finding 1:   Sub-grantee did not comply with the Davis-Bacon Minimum Wage Act –
             Advisory Comment




                                          7
                                                                    Attachment 1 (continued)


                       SECTION V: ADVISORY COMMENT


Finding 1: Sub-Grantee did not comply with the Davis-Bacon Act Minimum Wage Act
– Advisory Comment

During the entrance conference we were notified by ODOD that NHBC was not in
compliance with the Davis-Bacon Act of 1931 (Davis-Bacon). Specifically, NHBC did not
pay contractors and subcontractors according to the Davis-Bacon locally prevailing wage
rates. ODOD identified this discrepancy during a review of payroll information provided by
the contractors and subcontractors, and notified us of their on-going effort to resolve the
matter with NHBC. We noted that NHBC was using the State of Ohio's minimum wage
requirements instead of the Davis-Bacon locally prevailing wage rates to pay contractors and
subcontractors.

According to the Davis-Bacon, federal government construction contracts, and most
contracts for federally assisted construction over $2,000, must include provisions for paying
workers on-site no less than the locally prevailing Davis-Bacon wages and benefits paid on
similar projects.

As a result of the condition noted above, some contractors and subcontractors did not receive
the Davis-Bacon locally prevailing wages and benefits for the work performed for NHBC.
These contractors and subcontractors received the State of Ohio minimum wage rates.

It was an oversight by NHBC's management that resulted in the use of the State of Ohio's
minimum wage requirements for the project instead of the Davis-Bacon wage requirements.
NHBC's management is currently working with ODOD to correct any underpayment to all
employees of the contractors and subcontractors that worked on the project.

So far in its review of the certified payroll reports of the contractors and subcontractors,
NHBC's management has identified a few cases in which employees were paid 10 cents per
hour less than the correct Davis-Bacon wage rate.

According to ODOD and NHBC, the wage issues have been resolved.

Recommendation
We recommend that the State of Ohio and NHBC ensure that the prevailing Davis-Bacon
wages are properly paid to contractors' and subcontractors' employees that worked on the
project.

Management Comments and Auditors' Analysis:

The State of Ohio concurred with the finding and recommendation. The State's comments
are included in Attachment 5.


                                            8
                                                     Attachment 2




Report on Examination Level Attestation Engagement

                        Of

       METRO Regional Transit Authority
     American Recovery and Reinvestment Act
             State Energy Program



   Performed for the U.S. Department of Energy,
           Office of Inspector General


                      Under


         Contract Number: DE-IG0000018
          Work Order Number: 2011-02


                        By



              Otis and Associates, PC



                      Date:

                 August 10, 2012




                         9
                                                                                                     Attachment 2 (continued)


                                                     Table of Contents

Section                                                                                                                    Page

I.     Independent Accountants' Report ........................................................................... 11

II.    Background. ............................................................................................................ 12

III.   Classification of Finding ......................................................................................... 14

IV.    Summary of Finding ............................................................................................... 15

V.     Advisory Comment ................................................................................................. 16




                                                                 10
     Attachment 2 (continued)




11
                                                                         Attachment 2 (continued)


                                SECTION II: BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act) was signed into law on
February 17, 2009. The Recovery Act authorizes funding to various economic sectors and
Federal programs. The State Energy Program (SEP), under the U.S. Department of Energy
(Department), received $3.1 billion to achieve the purposes set forth in the Recovery Act,
including the preservation and creation of jobs, promotion of economic recovery and reduction
of energy consumption.

The State Energy Program is a categorical formula grant program administered by the
Department, under a regulatory framework laid out in 10 CFR 600.6(b) and 10 CFR Part 420,
State Energy Program. The Department's SEP objectives are as follows:

     •   Increase energy efficiency to reduce cost and consumption for consumers, businesses
         and government;
     •   Reduce reliance on imported energy;
     •   Improve the reliability of electricity and fuel supply and the delivery of energy services;
         and,
     •   Reduce the impact of energy production and use on the environment.

The Department's Office of Inspector General (OIG), contracted with Otis and Associates, PC to
perform an Examination Level Attestation Engagement on the Recovery Act's SEP services
provided by selected State of Ohio sub-grantees. Metro Regional Transit Authority (MRTA) is
one of the four State of Ohio sub-grantees selected.

Under the Recovery Act, the State of Ohio received an allocation of $96,083,000 from the
Department for the SEP. The State of Ohio's Department of Development (ODOD) allocated
this funding among five different programs. The "Deploying Renewable Energy" Program was
allocated $24,853,434 for wind and solar projects, transforming waste to value projects, and
advancing bio-fuels. MRTA was awarded $1,000,000 from this Program to install a 488
Kilowatt rooftop solar system located on its central bus barn roof. The installation of these 2,080
Sharp modules, combined with the existing 133 Kilowatt solar array, makes the system one of
the largest single-array solar systems in the State of Ohio.

MRTA provides public transportation for Summit County, Ohio. MRTA's buses transport more
than six million passengers annually. MRTA also offers local service daily from its transit center
in downtown Akron, as well as regional transit to surrounding counties and the Akron-Canton
Airport. MRTA was created under Chapter 306 of the State of Ohio Revised Code, by resolution
of the City of Akron, OH, which was originally adopted in 1972 and amended on January 28,
1991, to transform the three-city transit system to a countywide transit system. MRTA's service
area covers approximately 420 square miles in Summit County. Express service to downtown
Cleveland, OH is also provided.

Under the Recovery Act SEP, MRTA signed a contract with ODOD to be reimbursed for
$1,000,000 of eligible expenses related to the deployment of the solar array located at its central
                                                12
                                                                     Attachment 2 (continued)

bus barn. MRTA entered into a cost-share agreement, which requires it to invest approximately
$2,590,640 on the project for reimbursement of $1 million from the State of Ohio in Recovery
Act funds. The project was completed in August 2010.


PROJECT BUDGET PER GRANT AGREEMENT

Federal Award Number: DE-EE0000165
 Expense Category                               Amount
 Contractual/Sub award or Sub recipient        $ 2,590,640.00
 Total                                         $ 2,590,640.00


PROJECT COSTS INCURRED AS OF MARCH 31, 2011

 Expense Category                               Amount
 Contractual/Sub award or Sub recipient        $ 2,535,654.00
 Total                                         $ 2,535,654.00


PROGRAM FUNDS REIMBURSED TO METRO BY STATE OF OHIO

                                          Grant             Grant
  Federal Award          Amount         Effective        Completion
     Number                               Date              Date
 DE-EE0000165         $1,000,000.00   March 15, 2010    March 15, 2011




                                              13
                                                                       Attachment 2 (continued)


                     SECTION III: CLASSIFICATION OF FINDING

DEFINITIONS

There is only one finding in this report, which is categorized as an advisory comment, as defined
below, for the purposes of this engagement.

Advisory Comment

For purposes of this engagement, an advisory comment represents a control deficiency that is not
significant enough to adversely affect MRTA's ability to record, process, summarize, and report
data reliably.




                                               14
                                                                  Attachment 2 (continued)


                       SECTION IV: SUMMARY OF FINDING


Finding 1:   MRTA did not designate an account code to track Recovery Act funding from
             other sources of funding – Advisory Comment




                                           15
                                                                       Attachment 2 (continued)


                            SECTION V: ADVISORY COMMENT


Finding 1:    MRTA did not designate an account code to track Recovery Act funding
              from other sources of funding – Advisory Comment

MRTA did not separate Recovery Act funding from other sources of funding. Specifically,
MRTA's general ledger and chart of accounts did not designate a separate account code to track
the receipt and use of its Recovery Act funds, as required by the Recovery Act. However, we
noted that the charges to the funds were supported with receipts and other documents that
indicated the costs charged to the grant were for Recovery Act purposes and were allowable.

In accordance with the Recovery Act's requirements for segregation of funds and costs, a grantee
must segregate the obligations and expenditures related to funding under the Recovery Act by
maintaining a financial and accounting system that segregates, tracks, and maintains the
Recovery Act funds separate and apart from other revenue streams. The Recovery Act also
requires that no part of the funds from the Recovery Act shall be co-mingled with any other
funds or used for a purpose other than that of making payments for costs allowable for Recovery
Act projects. The Recovery Act also allows for Recovery Act funds to be used in conjunction
with other funding sources as necessary to complete projects, but tracking and reporting must be
separate to meet the reporting requirements of the Recovery Act and Office of Management and
Budget Guidance.

MRTA's management stated that they were not aware of the requirement stipulating that
Recovery Act funds should be tracked and recorded separately from other funding sources. They
also stated that the project was completed before reimbursement was requested from the State of
Ohio.

As a result of the condition noted above, MRTA did not comply with the Recovery Act
requirement that it segregate, track or record separately Recovery Act expenditures and funding
from those of other sources.

Suggestion

We are not making a recommendation because the project was completed, and allowable costs
incurred exceeded the Recovery Act funds claimed for the project.

Management Comments and Auditors' Analysis:

The State of Ohio and MRTA concurred with the finding. The State's and MRTA's comments
are included in Attachment 5.




                                               16
                                                     Attachment 3



Report on Examination Level Attestation Engagement

                        Of

     Forest City Residential Management, Inc.
     American Recovery and Reinvestment Act
              State Energy Program



   Performed for the U.S. Department of Energy,
           Office of Inspector General

                      Under

         Contract Number: DE-IG0000018
          Work Order Number: 2011-02

                        By


              Otis and Associates, PC


                      Date:

                 August 10, 2012




                        17
                                                                                                     Attachment 3 (continued)


                                                     Table of Contents

Section                                                                                                                    Page

I.     Independent Accountants' Report ..........................................................................19

II.    Background. ...........................................................................................................20

III.   Summary of Findings .............................................................................................22




                                                                 18
     Attachment 3 (continued)




19
                                                                          Attachment 3 (continued)


                                SECTION II: BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act) was signed into law on
February 17, 2009. The Recovery Act authorizes funding to various economic sectors and U.S.
Federal departments. The State Energy Program (SEP), under the U.S. Department of Energy
(Department), received $3.1 billion of funding to achieve the purposes set forth in the Recovery
Act, including the preservation and creation of jobs, and promotion of economic recovery and
reduction of energy consumption.

The State Energy Program is a categorical formula grant program administered by the
Department, under a regulatory framework laid out in 10 CFR 600.6(b) and 10 CFR Part 420,
State Energy Program. The Department's SEP objectives are as follows:

       •   Increase energy efficiency to reduce cost and consumption for consumers, businesses
           and government;

       •   Reduce reliance on imported energy;

       •   Improve the reliability of electricity and fuel supply and the delivery of energy
           services; and,

       •   Reduce the impact of energy production and use on the environment.

The Department's Office of Inspector General (OIG) contracted with Otis and Associates, PC to
perform an Examination Level Attestation Engagement on the Recovery Act's SEP services
provided by selected State of Ohio sub-grantees. Forest City Residential Management, Inc.
(Forest City) is one of the four State of Ohio sub-grantees selected.

Under the Recovery Act, the State of Ohio received an allocation of $96,083,000 from the
Department for the SEP. The State of Ohio's Department of Development allocated this funding
among five different programs. The "Deploying Renewable Energy" Program was allocated
$24,853,434 to utilize a variety of renewable energy sources, including solar, wind, biomass
waste and related technologies. The initiatives of this Program are divided into three categories:
(1) renewing manufacturing through deployment, (2) transforming waste to energy, and (3)
advancing bio-fuels beyond the basics. Forest City received $1,143,985 from this Program to
install a photovoltaic solar system on the roof-top of its Midtown Towers Apartment Complex.
Forest City entered into a cost sharing agreement in which it would invest a minimum cash
match of $867,819 of the total projects costs.

Founded in 1920 and based in Cleveland, OH, Forest City is a New York Stock Exchange-
(NYSE) listed national real estate company with $10.7 billion in total assets. It is principally
engaged in the ownership, development, management and acquisition of commercial and
residential real estate and land throughout the United States.



                                                20
                                                                  Attachment 3 (continued)


PROGRAM BUDGET PER GRANT AGREEMENT

Cost Category Description                  Amount
Contractors/Sub-award or Sub-recipient     $1,143,985.00
Cash Match                                 $ 867,819.14
Total                                      $2,011,804.14

PROGRAM EXPENDITURES AS OF MARCH 31, 2011


Cost Category Description                  Amount
Contractors/Sub-award or Sub-recipient     $1,143,985.00
Cash Match                                 $1,175,371.35
Total                                      $2,319,356.35

PROGRAM REIMBURSEMENT AS OF MARCH 31, 2011

  Federal Award           Amount         Grant Effective    Grant Completion
     Number                                   Date                 Date
DE-EE0000165           $1,143,985.00     March 15,2010     March 15, 2011




                                             21
                                                        Attachment 3 (continued)


                        SECTION III: SUMMARY OF FINDINGS

There are no findings resulting from our examination.




                                              22
                                                     Attachment 4




Report on Examination Level Attestation Engagement

                        Of

             The Timken Company
     American Recovery and Reinvestment Act
             State Energy Program



   Performed for the U.S. Department of Energy,
           Office of Inspector General

                      Under

         Contract Number: DE-IG0000018
          Work Order Number: 2011-02

                        By


              Otis and Associates, PC


                      Date:

                 August 10, 2012




                        23
                                                                                                     Attachment 4 (continued)


                                                     Table of Contents

Section                                                                                                                    Page

I.     Independent Accountants' Report ..........................................................................25

II.    Background. ...........................................................................................................26

III.   Summary of Findings .............................................................................................28




                                                                 24
     Attachment 4 (continued)




25
                                                                         Attachment 4 (continued)


                               SECTION II: BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act) was signed into law on
February 17, 2009. The Recovery Act authorizes funding to various economic sectors and U.S.
Federal departments. The State Energy Program (SEP), under the U.S. Department of Energy
(Department), received $3.1 billion to achieve the purposes set forth in the Recovery Act,
including the preservation and creation of jobs, promotion of economic recovery and reduction
of energy consumption.

The State Energy Program is a categorical formula grant program administered by the
Department, under a regulatory framework laid out in 10 CFR 600.6(b) and 10 CFR Part 420;
State Energy Program. The Department's SEP objectives are as follows:

    •   Increase energy efficiency to reduce cost and consumption for consumers, businesses
        and government;

    •   Reduce reliance on imported energy;

    •   Improve the reliability of electricity and fuel supply and the delivery of energy services;
        and,

    •   Reduce the impact of energy production and use on the environment.

The Department's Office of Inspector General (OIG), contracted with Otis and Associates, PC to
perform an Examination Level Attestation Engagement on the Recovery Act's SEP services
provided by selected State of Ohio sub-grantees. Timken Company, (Timken) is one of the four
State of Ohio sub-grantees selected.

Under the Recovery Act, the State of Ohio received an allocation of $96,083,000 from the
Department for the SEP. State of Ohio's Department of Development (ODOD) allocated this
funding among five different programs. The "Targeting Industrial Efficiency" Program was
allocated $20,610,063 to help manufacturing companies implement projects that improve energy
efficiency of their operations. Timken received $1,175,000 from this Program.

Timken was awarded the grant by ODOD to update a rotary furnace with regenerative burners
and a waste heat recovery boiler to recapture and reuse generated steam in reducing the load of
existing natural gas fired boilers. Timken entered into a cost sharing agreement in which it
would invest a minimum cash match of 50 percent of the total projects costs.

Timken is one of the world's leading producers of highly engineered antifriction bearings and
alloy steel, along with their related products, services, and components. The company helps
create, transfer and control power; by putting its friction management and power transmission
technologies to work across a broad industry spectrum. Timken uses its friction management



                                                26
                                                                      Attachment 4 (continued)

 and power transmission technologies and solutions for many major market segments including
aerospace, automotive, construction, consumer, defense, energy, industrial equipment, health,
heavy industry, machine tool, positioning control, power generation and rail.

PROJECTS BUDGET PER GRANT AGREEMENT


Expense Category              Project One Project Two Approved Budget
Equipment                      $389,250.00 $215,172.50       $604,422.50
Contractors/Sub-contractors    $385,750.00 $184,827.50       $570,577.50
Total                           $775,000.00     $400,000.00          $1,175,000.00

PROJECTS EXPENDITURES AS OF MARCH 31, 2011


Expense Category              Project One    Project Two Approved Budget
Equipment                        $389,250.00  $215,172.50      $604,422.50
Contractors/Sub-contractors      $385,750.00  $184,827.50      $570,577.50
Cash Match                       $775,000.00  $400,000.00    $1,175,000.00
Total                          $1,550,000.00  $800,000.00    $2,350,000.00


PROGRAM REIUMBURSEMENT AS OF MARCH 31, 2011

Federal Award           Amount         Grant Effective Grant Completion
Number                                 Date            Date
DE-EE0000165             $1,175,000.00    May 10,2010         May 10, 2011




                                              27
                                                           Attachment 4


                        SECTION III: SUMMARY OF FINDINGS

There are no findings resulting from our examination.




                                              28
                      Attachment 5

MANAGEMENT COMMENTS




        29
     Attachment 5 (continued)




30
     Attachment 5 (continued)




31
                                                                IG Report No. OAS-RA-L-12-07


                                  CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report which would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.

Name                           Date

Telephone                      Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and
cost effective as possible. Therefore, this report will be available electronically through the Internet at
                                         the following address:

                  U.S. Department of Energy Office of Inspector General Home Page
                                        http://energy.gov/ig

     Your comments would be appreciated and can be provided on the Customer Response Form
                                    attached to the report.
